STATE oFALABAMA

OFFICE OF THE A]TORNEY GENERAL
5OI VYASHINGTON.AVENUE
P.O. BOX 300t52
MONTGOMER'Y, AL 361300152

STEVEN T. MARSHALL
ATTORNEYGENERAL

13341242.7300

W.AGO.AUBAMA.GOY

April 13, 2O2l
Honorable Scott Harris
Chief Deputy Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543

Re: Miller

u. Dunn
Case No. 2O-7592

Dear Mr. Harris:

I am writing to request an extension of time to file the State of
Alabama's brief in opposition in the above-styled case. The State's
brief in opposition is due in this Court on April 28,2O21. The State
of Alabama requests an additional 30 days. The State's brief in
opposition would then be due on May 28, 2021.
Thank you for your assistance in this matter.
Sincerely,

s/ Audreg Jordan
Audrey Jordan
Assistant Attorneg General
cc:

Tobias Samuel Loss-Eaton
tlo s seaton@sidlev. com

